Supreme Court, U.S.
FILED

AUG 0 6 2020
OFFICE OF THE CLERK

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Derek Tyler Horton

- PETITIONER

(Your Name)
vs.

State of Alabama

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

The Alabama Court of Criminal Appeals
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Derek Tyler Horton

A.I.S. 315342

(Your Name)

1000 Saint Clair Rd.
(Address)

Springville, AL, 35146
(City, State, Zip Code)

251 202 3684 (Mrs. K. Horton)
(Phone Number)

3

QUESTION(S) PRESENTED

1.) Whether a police officer's reason for acting, in at least
some circumstances, should factor into the Fourth Amendment
inquiry?*
2.) Whether the State of Alabama erred in adopting and applying
what is known as the "could have" test to evidence that was
seized as a part of a pretextual arrest?
3.) Whether an officer has a duty to investigate further when
circumstances suggest that probable cause may, in fact, not even
exist contrary to first impressions?
4.) Whether an arrest can still be considered "lawful" if there
are circumstances that vitiate the probable cause used to obtain
the warrant?

* This central question is asked verbatim by Justice Ginsburg in
WESBY, infra, and she specifically suggest that this question
should be addressed by the Court.

LIST OF PARTIES

[tf All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Horton v. State, 217 So.3d 27 (Ala. Crim. App. 2016)
Horton v. Stewart, No. 1:2019cv00229 - Document 8 (S.D. Ala. 2019)

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-

REASONS FOR GRANTING THE WRIT

5-9

CONCLUSION

6

INDEX TO APPENDICES
APPENDIX A
Opinion of the Alabama Court of Criminal Appeals
APPENDIX B
Certificate of Judgement Issued by the Alabama Supreme Court
APPENDIX C
Order Denying Application for Rehearing from the Alabama Court
of Criminal Appeals
APPENDIX D
Order of Appointment of Appellate Counsel and Circuit Court
Sentencing Order
APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED
PAGE NUMBER
CASES
1.) District of Columbia v. Wesby, 138 S.Ct. 577 (2018)
7.
2.) Eiras v. Baker, USDC,(2019)Case No. 3:16-cv-231-J-34PDB
7.
7.
3.) Ex Parte Scarbrough,621 So. 2d 1006 (1993)
5.
4.) Franks v. Delaware, 438 U.S. 154 (1978)
5.
5.) Kuehl v Burtis, 173 F.3d 646 (8th Cir. 1999)
8.
6.) Missouri v. Blair, (1987), 480 U.S. 698
8.
7.) State of Missouri v Zola Blair, 691 S.W.2d 259 (1985)
8.
8.) U.S. v. Causey, 834 F.2d 1179 (1987)
5.
9.) US v. Tanguay, 787 F.3d 44 (2015)
8.
10.) Whren v. United States,517 U.S. 806 (1996)
7.
11.) Wilson v. Russo, 212 F.3d 781 (3d Cir.2000)

STATUTES AND RULES
Alabama Code Title 13A Criminal Code 13A-6-134

9.

OTHER
1.) The Element in the Room: Requiring Probable Cause of Every
Element of a Crime, Kimberly la Fronz (NYU Law Article)
2.) § 1.4(f)More on "pretext": the effects of Whren, 1 Search &
Seizure § 1.4(f) (5th ed.)

App.E
6.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
W For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
A to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
H is unpublished.
Alabama Supreme Court
The opinion of the
appears at Appendix__B__to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
1.

court

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date)
(date) on
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[•4 For cases from state courts:
The date on which the highest state court decided my case was August 9th 2019
A copy of that decision appears at Appendix__ A___
|/| A timely petition for rehearing was thereafter denied on the following date:
September 27th 2019, and a copy of the order denying rehearing
appears at Appendix__ ____
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
4th Amendment to the United States Constitution

14th Amendment to the United States Constitution

3.

STATEMENT OF THE CASE
On March 19th 2010 the police were called to the residence of the petitioner
concerning an alleged domestic violence. Upon arriving at the scene the
officer was informed that petitioner was not present but that he had been
involved in a physical conflict with his mother who had been the one to call
the police. The officer asked the petitioner's mother to fill out an,
unsworn, affidavit saying what had occurred. No one was arrested at the scene
and no witnesses were present.The officer did not identify the predominant
aggressor and the victim's affidavit was ambiguous as to whether the
petitioner acted in self-defense. Also no photographs were taken.
1 week later(March 25th) the officer, Det. Welch, in charge of doing follow­
up reports and investigations interviewed the petitioners mother(by phone)
and determined that she did not wish to pursue charges. Detective Welch
marked the case "exceptionally cleared" (Apparently a good faith
determination that there was not probable cause to pursue an arrest warrant).
3 weeks later(On April 14th) and after the Mobile Police Department had
completely ceased to investigate this misdemeanor crime, the detective over
the case(Welch) received a call from the Mobile County Sheriffs Department
homicide division — something he said was unusual at a later hearing — and on
the phone was Detective Tunink the lead detective in a case where the suspect
happened to be the same suspect in the closed domestic violence investigation
i.e. the petitioner. Detective Tunink asked Detective Welch to "look back
into" the domestic violence case and based on that request (and whatever else
was said in that phone call), the petitioner was arrested on Domestic
Violence 3rd after Detective Welch swore out a warrant on the petitioners
mothers' behalf. Detective Welch did not perform any sort of basic
investigation before seeking the arrest warrant and did not attempt to
interview the petitioner, his mother, or the officer that responded to the
scene on March 19th. His "probable cause" was based on the same unverified/
unsworn statement by petitioner's mother that he had already reviewed before
deciding to close the investigation on March 25th.
While in jail on this pretextual arrest the petitioner was unable to make
bond and subsequently was questioned about the aforementioned homicide and
gave an incriminating statement regarding his whereabouts to the Sheriff's
Office. Along with the statement, the petioners fingerprints and DNA were
taken and a search was performed at his residence. The DNA was a match for
DNA found on the steering wheel of the victims stolen car. Finally there was
a very damaging statement made by the defendant that if suppressed would have
likely resulted in the dismissal of the indictment for murder. So taken
together, the evidence gained as a result of the pretextual arrest formed the
foundation for a subsequent conviction for murder in a separate unrelated
case. After the petitioner was charged with murder on April 26th the city
moved to dismiss the Domestic Violence III charge on June 10th. Petitioner
never received a full and fair FRANKS hearing to determine if there was, in
fact, probable cause for the pretextual arrest itself. The 4th amendement was
circumvented successfully and without the pretextual misdemeanor arrest,
there would have been no murder conviction.

4.

REASONS FOR GRANTING THE PETITION
1.) The Circuit: Judge determined that the arrest for domestic violence was, in
fact, a pretext after hearing pretrial testimony from the officer who obtained
the warrant. He also agreed that Ex Parte SCARBROUGH was the correct case law
to apply when determining whether to suppress the evidence. The problem is that
the "could have" test adopted in SCARBROUGH does not sufficiently account for
circumstances other than probable cause. The motivation of the officer is quite
obvious and when taken into account sheds light on his decision not to
investigate further by taking such steps as 1.) reinterviewing the victim to
determine if she still stuck by her original statement — which was used as the
core of the evidence to obtain an arrest warrant on the "victims behalf". 2.)
interviewing (by phone or in person)the suspect i.e. the petitioner 3.)
interviewing the officer that responded to the scene to determine how visible
the "scratch marks" were and why he didn't take photos 4.) determining if the
petitioner was the suspect involved in the prior incidents where the police
were called to his residence.
These are just examples of a basic investigation you would expect to happen on
a month old incident alleging a misdemeanor where the victim is, herself, not
even interested in pursuing charges. These things did not happen because we
know this was a pretext. The officer believed he had probable cause so long as
he turned a blind eye to the obvious fact that this may be a lie and he did not
do anything to investigate further because of the danger of losing his pretext
for arresting the petitioner. And according to 173 F.3d 646 (8th Cir. 1999)
probable cause does not exists under these circumstances.
2.) Even if the domestic violence arrest was not a pretext, it was still
illegal and completely arbitrary. If it had not been used as a "stalking horse"
to gain the evidence for a murder charge it would still have been an egregious
violation of petitioners right to due process because this broke standard
protocol and procedures in arresting a suspect on a domestic violence and was
illegal for other reasons stated above. See 438 U.S. 154 (1978) for why it is
an issue to have such a reckless disregard for the truth when seeking arrest
warrants. The officer should not be using the power of making an arrest on
behalf of an uncooperative victim in a domestic violence case to arrest a
suspect for an entirely different crime when it is clear that those aren't the
facts alleged in the complaint and the fact that the victim is unwilling to
support her own affidavit tends to vitiate it and the probable cause founded on
it. That is a circumstance that should be considered when deciding whether or
not the arrest was "lawful" -1
3.) Detective Welch has a duty to disclose to the Judge issuing the warrant
that there were facts not in the complaint that tended to vitiate the probable
cause such as the victim not wishing to prosecute and the case being closed for
2 weeks without incident. Also it would have shown good faith if he had
revealed the call from the homicide investigator. 787 F.3d 44 (2015)
4.) This was a bad faith arrest for a domestic violence that was effectively a
sham, that no one had any real interest in prosecuting, and that would not even
have happened at all and yet it was the principal tool for circumventing the
petitioners 4th amendment rights and the evidence seized as a result is
directly responsible for petitioners conviction in a completely separate crime,
namely the murder conviction.
5.

5.) For the reasons stated above it is clear that without the evidence
seized as a result of the bad faith, unlawful, pretextual misdemeanor
arrest — the petitioner would not have been convicted of murder and had
the Alabama Supreme Court properly adopted the 11th Circuit Test for
determining whether to suppress evidence gained from a pretext arrest
(known as the "would have" test), he would likewise not have been
convicted. This Court should set the standard for test to be used in these
situations and settle the split in authority and alternatively use this
case as an example of an exception that can be made to the "objective
test" as it shows that probable cause determination does not account for
every circumstance surrounding the decision to arrest especially when it
is objectively known that this is a pretext and that the actual truth of
the claims made in the pretext offense has become irrelevant to the
arresting officer as it would get in the way of the "greater good" he is
trying to do the community by arresting a murder suspect even if it means
circumventing and violating his Fourth amendment rights.
[See Page 7 for More Reasons]
CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Zb
Date:

7- Af -3,0

Endnotes
1.) See Wilson v. Russo, 212 F.3d 781 (3d Cir.2000) ("omissions are made
with reckless disregard if an officer withholds a fact in his ken that
'any reasonable person would have known ... was the kind of thing the
judge would wish to know'"); Rivera v. United States, 928 F.2d 592 (2d
Cir.1991) ("recklessness may be inferred where the omitted information
was 'clearly critical' to the probable cause determination")
2.) Professor Lafave: The Court's analysis in Whren is, to put it
mildly, quite disappointing. By misstating its own precedents and
mischaracterizing the petitioners' central claim, the Court
managed to trivialize what in fact is an exceedingly important
issue regarding a pervasive law enforcement practice.
"...since WHREN involved a traffic stop made on probable cause...it might be
questioned whether the same result should obtain in a case involving a
custodial arrest made on probable cause." [Search & Seizure § 1.4(f)]

6.

More Reasons for Granting Cert.
• The subjective intent of Officer Welch shows there was an
"absence of mistake" and that it was no accident in
arresting petitioner without probable cause (or in this
case vitiated probable cause). It was a deliberate
circumvention of petitioner's 4th amendment right.
• The affidavit from the victim in the DMV III case was an
objectively untrustworthy document to base probable cause
on.
• Justice Ginsburg dicta in WESBY, supra, that there may be
"some circumstances" where probable cause would not be the
only factor in deciding whether or not there is a 4th
amendment violation in pretext situations.
• The officer should have at least determined why the victim
did not want to pursue charges before determining that
there was probable cause based on her affidavit.
• A quote from EIRAS, supra: "In making an arrest affidavit
or seeking an arrest warrant, "[a]n arresting officer is
required to conduct a reasonable investigation to
establish probable cause." Rankin v. Evans, 133 F.3d 1425,
1435 (11th Cir. 1998). An officer may not "choose to
ignore information that has been offered to him or her . .
. [or] conduct an investigation in a biased fashion or
elect not to obtain easily discoverable facts. ..."
Kinqsland, 382 F.3d at 1229. Indeed, "[a] police officer
may not close her or his eyes to facts that would help
clarify the circumstances of an arrest. Reasonable avenues
of investigation must be pursued especially when, ... it
is unclear whether a crime [has] even taken place." See
BeVier v. Hucal, 806 F.2d 123, 128 (7th Cir. 1986)
(alterations added); see also Ahlers v. Schebil, 188 F.3d
365, 372 (6th Cir. 1999) ("[0]fficers, in the process of
determining whether probable cause exists, cannot simply
turn a blind eye toward potentially exculpatory evidence
known to them in an effort to pin a crime on someone.").
. Although officers "need not conduct a 'mini-trial' before
making an arrest, . . . probable cause does not exist when
a 'minimal further investigation' would have exonerated
the suspect." Kuehl v. Burtis, 173 F.3d 646, 650 (8th Cir.
1999) (internal citations omitted)"
• Ex Parte Scarborough, supra, does not solve the pretext
problem in Alabama because it does not elaborate on any

7.

circumstance that could vitiate probable cause and the
facts of the case are not even on point with a case like
petitioner's where the officer had to first obtain the
warrant for arrest. There was a pre-existing warrant in Ex
Parte Scarborough — so this is a material distinction.
• Franks v. Delaware, supra, held: "Where the defendant
makes a substantial preliminary showing that a false
statement knowingly and intentionally, or with reckless
disregard for the truth, was included by the affiant in
the warrant affidavit, and if the allegedly false
statement is necessary to the finding of probable cause,
the Fourth Amendment, as incorporated in the Fourteenth
Amendment, requires that a hearing be held at the
defendant's request." Therefore Judge Youngpeter should
not only have given petitioner a hearing to determine
whether the arrest was pretextual but after petitioner
offered to prove that there was reason to doubt the
officers sworn complaint, there should have also been a
hearing to determine if the so called "probable cause"
could have been vitiated at the time the officer made the
complaint. In other words, petitioner should have had a
hearing to argue that there was no probable cause.
• This Court has already granted Cert, to a prior
case(Missouri v. Blair, supra) in the past that dealt
directly with this issue and only because of the facts of
that particular case, the Court decided that Cert, was
improvidently granted. It is time for the court to
directly address suppression issues in cases that are more
akin to "pretextual arrest" than in cases like WHREN,
supra, that are more akin to a "pretextual stop". There
are key differences between a case like BLAIR, supra,
where the warrant process is involved and a case like
WHREN, supra, that involves an officer's own observations.
• The Circuit Judge incorrectly applied SCARBROUGH which i‘s
based on CAUSEY, supra. CAUSEY states that the pretextual
arrest warrant must be valid. Petitioner specifically

disputed the validity of the warrant and the probable
cause it was based on.
• Furthermore Judge Higinbotham in his concurrence in CAUSEY
specifically stated that: "An issued warrant ordinarily
lies within the circle of objective reasonableness because
probable cause for arrest has been found by a neutral
magistrate. However, this is not always the case.

8.

•
•

•

•

Objective facts extrinsic to those of the particular
offense for which a warrant is issued may alter the
conclusion of reasonableness"
The dissent in CAUSEY pointed out the flaws in the
majority's reasoning.
"A judicial officer would be expected to want to know this
information[about the victim not wanting to pursue
charges, the fact that the investigation had been closed,
the fact that the responding officer did not take photos
of any injuries, and the fact that the reopening of the
investigation was prompted by a homicide investigator's
request] largely because such information at least had the
potential to make a difference in the determination of the
existence of probable cause." RUSSO, supra.
The Alabama Domestic Violence statute, supra, is written
too broadly if it allows officers to make arrest on behalf
of victims even if the arrest has nothing to do with the
alleged domestic violence and the victim doesn't want to
pursue charges. It gives police to much power. This was
the law cited by Detective Tunink in the homicide report
when giving justification for why petitioner could be
arrested for domestic violence instead.
The Law article, Appendix E, makes clear why the officer
did not have probable cause to arrest for domestic
violence and why any potential probable cause was
vitiatedby the surrounding circumstances.

End

9.

